 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


  THE SOUTH AFRICAN NATIONAL
 DEPARTMENT OF HEALTH DID NOT
  ALWAYS MANAGE PRESIDENT’S
EMERGENCY PLAN FOR AIDS RELIEF
FUNDS OR MEET PROGRAM GOALS IN
   ACCORDANCE WITH AWARD
         REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                        August 2013
                                                       A-05-12-00022
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS) Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other in-country partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling
$1.2 billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 1U2GPS002062), CDC awarded
PEPFAR funds totaling $2,912,714 to the South African National Department of Health, the
Ministry of Health (the Ministry), for the budget period September 30, 2009, through September
29, 2010.

The Ministry’s mission is to ensure the delivery of quality, affordable and accessible health
services in accordance with the national 10-point plan for health. The Ministry entered into a
cooperative agreement with CDC to strengthen the capacity of the Ministry to scale up primary
health care services in South Africa to improve the management of HIV/AIDS. Specifically, the
goals of the program were to:

   •   expand and strengthen primary health care services and

   •   improve access to quality HIV/AIDS services.




                                               i
OBJECTIVE

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with the award requirements.

SUMMARY OF FINDINGS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $1,925,372 of the $3,451,561 was allowable, $3,734 was unallowable, $74,056 was
potentially unallowable, and $1,448,399 was related to the previous cooperative agreement. Of
the 30 financial transactions tested:

   •   22 transactions totaling $1,925,372 were allowable,

   •   3 transactions totaling $3,734 were unallowable because they lacked adequate supporting
       documentation, and

   •   5 transactions totaling $1,448,399 were related to the previous cooperative agreement and
       were therefore outside of the scope of our audit.

Additionally, the Ministry:

   •   used $74,056 of PEPFAR funds to pay potentially unallowable value-added taxes (VAT)
       on purchases;

   •   did not accurately report PEPFAR expenditures for this cooperative agreement on its
       financial status report (FSR) submitted to CDC; and

   •   did not obtain an annual financial audit as required by Federal regulations.

Our program management review showed that all three accomplishments from the annual
progress report were related to the goals and objectives of the cooperative agreement. However,
two of these accomplishments were missing detail to fully explain the progress made. Also, the
Ministry did not submit its annual progress report to CDC within the allotted time frame in
accordance with Federal regulations.

The Ministry’s policies and procedures did not ensure that it:

   •   maintained supporting documentation for allowable expenditures under the cooperative
       agreement and accurately reported costs on its (FSR);

   •   submitted its progress report timely and fully supported items related to the agreement;
       and

   •   obtained an annual financial audit and submitted the report as required by Federal
       regulations.

                                                ii
RECOMMENDATIONS

We recommend that the Ministry:

   •   refund to CDC $3,734 of unallowable expenditures;

   •   work with CDC to resolve whether the $74,056 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   file an amended FSR for the budget period of the cooperative agreement that we
       reviewed;

   •   develop and implement policies and procedures for:

        o reconciling the FSR to the accounting records prior to submission,

        o differentiating in the accounting records between CDC cooperative agreements and
          years within those agreements, and

        o ensuring that it maintains adequate supporting documentation for expenditures of
          Federal funds;

   •   use the exchange rate in effect at the time it prepares the FSR;

   •   develop and implement policies and procedures for submitting the annual progress report
       in a timely manner; and

   •   have annual audits performed and submitted in a timely manner to the applicable United
       States Agency.

NATIONAL DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Ministry generally concurred with our
recommendations, but provided additional documentation to support the expenditures we had
questioned in the draft report. After reviewing the Ministry’s additional documentation, we
determined that $496,982 of the expenditures we had questioned is allowable. We maintain that
the remaining $3,734 that we had questioned is unallowable and should be refunded to CDC.
Regarding our recommendation that the Ministry use the exchange rate in effect at the time it
prepares the FSR, the Ministry asked for further clarification as to why we believe that the
incorrect exchange rate was used. Pursuant to the GPS (Section II-114), financial reports must
be stated in U.S. dollars using the currency rate in effect at the time of submission. The Ministry
did not use the exchange rate in effect when it submitted its FSR.
The Ministry’s comments, except for the additional documentation, appear as the Appendix.



                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              South African National Department of Health, Ministry of Health................... 2
              Federal Requirements and Departmental Policies ............................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FINANCIAL MANAGEMENT .................................................................................... 5
               Financial Transaction Testing ............................................................................ 5
               Expenditures for Value-Added Tax ................................................................... 5
               Financial Status Reports .................................................................................... 6

          PROGRAM MANAGEMENT ...................................................................................... 7
              Progress Report Testing ..................................................................................... 7
              Progress Report Submission .............................................................................. 8

          NON-FEDERAL AUDIT REPORT .............................................................................. 8

          INADEQUATE POLICIES AND PROCEDURES ...................................................... 9

          RECOMMENDATIONS ............................................................................................... 9

          NATIONAL DEPARTMENT OF HEALTH COMMENTS ........................................ 10

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 10

APPENDIX: NATIONAL DEPARTMENT OF HEALTH COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other public health
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC obligated 1 PEPFAR funds totaling $1.2 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 2 In response to a Funding Opportunity Announcement (FOA), 3
CDC awarded the South African National Department of Health, the Ministry of Health (the
Ministry), grant number 1U2GPS002062 through a cooperative agreement for the project period
September 30, 2009, through September 29, 2014.




1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives (GPD) 1.02, the highest level of
policy within HHS that governs grants.

2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number CDC-RFA-PS09-951 is entitled: Implementation of a Primary Health Care Program in South
Africa Under the President’s Emergency Plan for AIDS Relief (PEPFAR).



                                                            1
South African National Department of Health, Ministry of Health

The Ministry’s mission is to ensure the delivery of quality, affordable, and accessible health
services in accordance with the national 10-point plan 4 for health. The Ministry entered into a
cooperative agreement with CDC to strengthen the capacity of the Ministry to scale up primary
health care services in South Africa to improve the management of HIV/AIDS. Specifically, the
goals of the program were to:

    •    expand and strengthen primary health care services and

    •    improve access to quality HIV/AIDS services.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization (GPS II-
113). Thus, the rules in 45 CFR part 92 apply to a foreign government.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 92 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from the Ministry on June 15, 2009,
as a part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with the award requirements.

Scope

Our audit covered the budget period from September 30, 2009, through September 29, 2010.
This budget period was the first year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $2,912,714.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at the Ministry’s offices in Pretoria, South Africa.


4
  The 10-point plan for health is part of the strategic plan of the National Department of Health and is aimed at
creating a well functioning health system capable of producing improved health outcomes.



                                                          2
Methodology

To accomplish our objective, we:

      •    reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
           the Ministry’s policies and procedures;

      •    interviewed and conducted meetings with CDC South Africa officials to determine the
           extent of the technical assistance they provided to the Ministry;

      •    interviewed and conducted meetings with Ministry officials to determine their processes
           and procedures related to financial accounting and reporting, and program goals and
           accomplishments;

      •    reconciled the Ministry’s accounting records to the financial status report (FSR) 5 for the
           budget period under review;

      •    selected and reviewed a judgmental sample of 30 financial transactions totaling
           $3,451,561 including expenditures such as:

               o restricted funds, if specified on the NOA;

               o unallowable costs, such as indirect costs, if specified on the NOA;

               o transactions above/below the average transaction amount in an expenditure
                 category;

               o costs related to the previous cooperative agreement; and

               o other unusual transactions;

      •    identified the amount of value-added taxes (VAT) 6 that the Ministry paid with PEPFAR
           funds;

      •    compared the accomplishments described in the Ministry’s annual progress report to the
           cooperative agreement’s goals and objectives; and

      •    reviewed all three accomplishments described in the Ministry’s annual progress report
           and reviewed supporting documentation to determine whether the Ministry met program
           goals and objectives.


5
  Pursuant to 45 CFR § 92.41(b)(4), FSRs are due to the CDC Grants Management Office 90 days after the end of
the budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.
6
    VAT is a form of consumption tax.


                                                       3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $1,925,372 of the $3,451,561 was allowable, $3,734 was unallowable, $74,056 was
potentially unallowable, and $1,448,399 was related to the previous cooperative agreement. 7 Of
the 30 financial transactions tested:

    •    22 transactions totaling $1,925,372 were allowable;

    •    3 transactions totaling $3,734 were unallowable because they lacked adequate supporting
         documentation; and

    •    5 transactions totaling $1,448,399 were related to the previous cooperative agreement and
         were therefore outside of the scope of our audit.

Additionally, the Ministry:

    •    used $74,056 of PEPFAR funds to pay potentially unallowable value-added taxes (VAT)
         on purchases;

    •    did not accurately report PEPFAR expenditures for this cooperative agreement on its
         financial status report (FSR) submitted to CDC; and

    •    did not obtain an annual financial audit as required by Federal regulations.

Our program management review showed that all three accomplishments from the annual
progress report were related to the goals and objectives of the cooperative agreement. However,
two of these accomplishments were achieved using both PEPFAR and non-PEPFAR funds. The
progress report only included accomplishments achieved with PEPFAR funds. Also, the
Ministry did not submit its annual progress report to CDC within the allotted time frame in
accordance with Federal regulations.



7
 The Ministry did not utilize cost classification codes or cost centers that distinguished different years of the same
cooperative agreement. Also, the Ministry could not distinguish expenses between the current cooperative
agreement and the previous cooperative agreement. Since costs from other periods were included in the monthly
expenditure reports, we had to determine whether the sample transaction was related to our audit period, or to the
previous cooperative agreement.




                                                           4
The Ministry’s policies and procedures did not ensure that it:

    •   maintained adequate supporting documentation for allowable expenditures under the
        cooperative agreement and accurately reported costs on its FSR;

    •   submitted its progress report timely and fully supported items related to the agreement;
        and

    •   obtained an annual financial audit and submitted the report as required by Federal
        regulations.

FINANCIAL MANAGEMENT

Financial Transaction Testing

Pursuant to 45 CFR § 92.20(b)(2), grantees and subgrantees must maintain records which
adequately identify the source and application of funds provided for financially-assisted
activities. These records must contain information pertaining to grant or subgrant awards and
authorizations, obligations, unobligated balances, assets, liabilities, outlays or expenditures, and
income. Also, Federal regulations (2 CFR part 225, Appendix B, § 8.h.(1)) state that charges to
awards for salaries and wages will be based on documented payrolls approved by a responsible
official of the governmental unit.

We could not reconcile expenditures in the financial status report to the accounting system
because funds from different years of the cooperative agreement were comingled. The total
amount reconciled exceeded the budget by $3,271,804 because the Ministry did not use cost
classification codes or cost centers that distinguished different years of the same cooperative
agreement. Also, the Ministry could not distinguish expenses between the current cooperative
agreement and the previous cooperative agreement.

Expenditures for Value-Added Tax

Pursuant to the HHS GPS (Section II-114), certain costs, including VAT, are unallowable under
foreign grants and domestic grants with foreign components. Also, bilateral agreements with
foreign governments may stipulate an exemption from paying the VAT for those contractors and
grantees that are funded by and providing foreign aid from the United States. 8

As shown in the table on Page 6, during the audit period, the Ministry used $74,056 of PEPFAR
funds to pay the VAT, a potentially unallowable cost for this grant. The Ministry stated that
prior to a recent meeting with CDC in-country officials, they were not aware of the exemption
for VAT provided in the bi-lateral agreement between the United States and The Republic of
South Africa. They also were not aware that they could apply to the South African Revenue

8
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommended that the Ministry work with CDC to resolve the issue.




                                                       5
Service for a rebate of VAT or that rebated VAT should be refunded back to the PEPFAR
program.

Of 30 sample transactions totaling $3,451,561, $1,925,372 was allowable, $3,734 was
unallowable, $74,056 was potentially unallowable, and $1,448,399 was related to the previous
cooperative agreement. (See the Table below.)

                                 Table: Financial Transactions


         Sample           Allowable No Supporting
       Transactions         Costs    Documentation         VAT        Not Reviewed           Total
           22             $1,925,372            $0        $74,056                 $0        $1,999,428
            3                      0         3,734              0                  0             3,734
            5                      0             0              0         $1,448,399         1,448,399
           30             $1,925,372        $3,734        $74,056         $1,448,399        $3,451,561

Specifically, we found:

   •    22 transactions totaling $1,999,428 included $1,925,372 that was adequately supported
        by source documentation, and $74,056 of potentially unallowable VAT;

   •    3 transactions totaling $3,734 associated with travel were unallowable costs because the
        Ministry was unable to provide documentation to support the expenditures; and

   •    5 transactions totaling $1,448,399 were not reviewed because they related to the previous
        cooperative agreement. The Ministry did not differentiate in its accounting records
        between the current cooperative agreement and the previous cooperative agreement. As a
        result, some of the financial transactions selected for testing were not related to our audit
        period.

Financial Status Reports

Pursuant to 45 CFR § 92.41(b)(4), recipients must submit an FSR no later than 30 days after the
end of each specified report period for quarterly and semiannual reports and 90 calendar days
after the end of the specified report period for annual and final reports. The NOA provides the
due date for the FSRs.

Pursuant to 45 CFR § 92.20(b)(1), a grantee’s financial management reporting system must be
able to demonstrate an accurate, current, and complete disclosure of the financial results of grant
funded activities in accordance with the financial reporting requirements of the grant. Pursuant
to the GPS (Section II-114), financial reports must be stated in U.S. dollars using the currency
rate in effect at the time of submission.

The FSR that the Ministry submitted was timely, however, it did not agree with the accounting
records. The Ministry tracked expenditures in its monthly expenditure reports, which showed


                                                  6
that expenditures for our audit period were $6,067,730, or more than double the award amount.
We determined that these figures included a blend of old and new cooperative agreement
expenditures with no indication of which cooperative agreement or budget period they were
attributable.

Additionally, the Ministry did not use the applicable exchange rate in effect at the time it
prepared the FSR. Instead, it used the exchange rate in place when it received the funds from the
South Africa National Treasury. When recipients submit inaccurate FSRs, neither the recipient
nor the awarding agency can properly manage the awards.

PROGRAM MANAGEMENT

Progress Report Testing

Pursuant to 45 CFR § 92.40(b)(2), progress reports should compare actual accomplishments to
the objectives for the period. Also, progress reports should contain the reasons objectives were
not met and, when appropriate, explanations of cost overruns or high unit costs.

Pursuant to 45 CFR § 92.42, grantees are required to retain financial and programmatic records
and supporting documents, both those required by the grant agreement and those “otherwise
reasonably considered as pertinent to the regulations and grant agreement,” for 3 years from the
submission date of the final expenditure report for the funding period.

Additionally, the FOA states that the Ministry should have measurable outcomes that are in
alignment with the performance goals. 9

All three accomplishments from the annual progress report were related to the goals and
objectives of the cooperative agreement. However, two of these accomplishments were missing
sufficient details to fully explain the progress made. Two of the three accomplishments were
missing details to fully explain the progress made, but our testing confirmed the
accomplishments were supported.

We identified examples of inaccurate or missing details in the Nurse Initiated and Managed
Antiretroviral Treatment program. 10 The program goal was to train 1,000 nurses by the national
deadline of July 1, 2010. The Ministry’s progress report stated that 352 nurses were trained, but
the documentation supported the training of 362 nurses with PEPFAR funds during the audit
period. In addition, PEPFAR funds were used to train 28 Master and Facility trainers. 11 The
9
 Section IV of the NOA—Special Terms and Conditions—makes the requirements found in the FOA part of the
award by reference.
10
  The Nurse Initiated and Managed Antiretroviral Treatment program involved doctors stepping down from more
routine duties of HIV care, such as Antiretroviral Treatment monitoring, adherence and dispensing, and training
nurses to take the lead with these tasks instead. The program emphasized in-service training coupled with ongoing
mentoring and support.
11
   Master trainers led training sessions to train facility trainers. Facility trainers returned to their work facilities and
trained other nurses.



                                                              7
Facility trainers then provided instruction to over 1,300 nurses from October to December 2010.
According to the program manager, the Ministry used departmental funding and not PEPFAR
funds to educate these remaining nurses.

Also, the progress report stated that the Ministry trained 2,000 trainees under the data capturer
program, 12 but the documentation only supported the training of 1,072. The difference resulted
because the Ministry used funding unrelated to PEPFAR to train the remaining 928 data
capturers.

Progress Report Submission
Pursuant to 45 CFR § 92.40(b)(1), recipients are required to submit annual progress reports,
unless the awarding agency requires quarterly or semiannual reports. Annual reports are due 90
days after the end of the grant year. Quarterly and semiannual reports are due 30 days after the
reporting period. Final progress reports are due 90 days after the expiration or termination of the
award. The NOA provides the specific due dates for annual progress reports. 13

The Ministry submitted its grant year 2010 progress report to CDC 6 months late. The
Ministry’s grant year ended September 29, 2010. Therefore, the annual progress report was due
on December 29, 2010. However, the Ministry did not submit the progress report to CDC until
June 15, 2011. Without progress reports, CDC could not determine whether the recipient met
program goals in accordance with award requirements.

NON-FEDERAL AUDIT REPORT

The GPS, page II-115, states that foreign recipients are subject to the same audit requirements as
commercial organizations specified in 45 CFR § 74.26(d). Pursuant to 45 CFR § 74.26(d)(1),
recipients that are commercial organizations are required to file one of the following types of
audits if they expended more than $500,000 in one or more Federal awards during a FY: a
financial-related audit or an audit that meets the requirements of OMB Circular A-133.

Pursuant to OMB Circular A-133, audits must be completed annually and submitted for review
within the earlier of 30 days after receipt of the auditor’s report or 9 months after the end of the
organization’s FY, unless a longer period of time is agreed to by the agency (subpart B §__.200
and subpart C §__.320). 14


12
  The data capturer program recruits young people to provide the service of data capturing, record filing and other
administrative work at health facilities. This program is aimed at addressing challenges in public health facilities
including data backlogs, poor record keeping, and lack of data capturers.
13
  The grant rules allow for extensions of progress report due dates and waivers in some instances, at the agency’s
discretion (45 CFR § 92.40(b)(1)). We did not see in the award files that we reviewed any evidence that CDC
granted waivers or allowed for extensions.
14
  If a foreign entity chooses to have a financial-related audit pursuant to 45 CFR § 74.26(d), the same due dates
apply. (See Clarification of Audit Requirements of For-Profit Organizations Including SBIR/STTR Grantees, issued
by the HHS National Institutes of Health, Jan. 11, 2006).



                                                          8
Pursuant to section IV, part 17 of the NOA, the Ministry is instructed to submit audits completed
in accordance with OMB Circular A-133 to NEAR.

The Ministry had not had an independent audit performed since 2005. As a result, the Ministry
is currently undergoing an external audit at the request of the CDC in-country Project
Officer. This new audit will cover all unaudited periods including our audit period. Without an
annual audit, CDC cannot fully assess the risks of awarding funds to a recipient, and Federal
funds could be at risk for mismanagement.

INADEQUATE POLICIES AND PROCEDURES

The Ministry’s policies and procedures did not ensure that it:

   •   claimed and maintained adequate supporting documentation for allowable expenditures
       under the cooperative agreement and accurately reported costs on its FSR;

   •   submitted its progress report timely and fully supported items related to the agreement;
       and

   •   obtained an annual financial audit and submitted the report as required by Federal
       regulations.

RECOMMENDATIONS

We recommend that the Ministry:

   •   refund to CDC $3,734 of unallowable expenditures;

   •   work with CDC to resolve whether the $74,056 of VAT was an allowable expenditure
       under the cooperative agreement;

   •   file an amended FSR for the budget period of the cooperative agreement that we
       reviewed;

   •   develop and implement policies and procedures for:

        o reconciling the FSR to the accounting records prior to submission;

        o differentiating in the accounting records between CDC cooperative agreements and
          years within those agreements; and

        o ensuring that it maintains adequate supporting documentation for expenditures of
          Federal funds;

   •   use the exchange rate in effect at the time it prepares the FSR;



                                                9
   •   develop and implement policies and procedures for submitting the annual progress report
       in a timely manner; and

   •   have annual audits performed and submitted in a timely manner to the applicable United
       States Agency.

NATIONAL DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, the Ministry concurred with our recommendations to
refund unallowable expenditures, work to resolve VAT expenditures, develop and implement
policies and procedures for the FSR and annual progress review, and annual audit compliance.
The Ministry provided additional documentation as support for a majority of the unallowable
expenditures in the draft report. The Ministry requested further clarification regarding the
exchange rate recommendation.

OFFICE OF INSPECTOR GENERAL RESPONSE
After reviewing the Ministry’s additional documentation, we determined that $496,982 of the
unallowable expenditures was supported by information that was not provided during our review
and is considered allowable. No additional support was received for the remaining $3,734 and
we continue to recommend that amount should be refunded to CDC. Regarding our FSR
exchange rate recommendation, the Ministry did not use the exchange rate in effect when it
prepared its report. Pursuant to the GPS (Section II-114), financial reports must be stated in U.S.
dollars using the currency rate in effect at the time of submission. We continue to recommend
that the Ministry use the exchange rate in effect when it prepares the FSR.
The Ministry’s comments, except for the additional documentation, appear as the Appendix.




                                                10
APPENDIX
                                                                                                                                                 Page 1 of 4


APPENDIX: NATIONAL DEPARTMENT OF HEALTH COMMENTS 




               health
               Department:
               Health
               REPUBLIC OF SOUTH AFRICA



Private Bag X828, PRETORIA, 0001. 19TH Floor. C1vitas. Crn Struben & Andries Street, PRETORIA, 0001 Tel: +27 (0) 12 395 8000 FaJ<. +27 {0) 12 395 8422


     Ms. Sheri Fulcher
     Regional inspector General f or Audit Services
     Office of Audit Services, Region V
     233 North Michigan Suite 1360
     Chicago, IL 60601

     July 3, 2013

     Dear Ms. Fulcher.

     This letter serves as a response to the correspondence dated June 19, 2013, provided by the
     U.S. Department of Health and Human Services (HHS), Office of Inspector General (OIG), for
     the draft report entitled The South African National Department of Health (NDoH) Did Not
     Always Manage President's Emergency Plan for AIDS Relief Funds or Meet Program Goals in
     Accordance With Award Requirements, Report number A-05-12-00022.

     OIG rec ommendation that NDOH refund to CDC $500,716 of unallowable expenditures.

     NDoH was unable to locate the supporting documentation to support payments for Sample
     items 10, 19, and 23 that added up to R27 ,889.20 ($3 ,734.05), please refer to Appendix 1 for
     more details . However, NDoH has been able to provide all the supporting documentation for
     Sample item 30 for the total transaction amount of R7 , 869,543. These include the transaction
     amounts for R4, 246,299.48 and R3, 623,243.52, please refer to Appendix 2 for the supporting
     documentation. Based on the additional supporting documentation, the refund amount has been
     reduced from $500,716 to $3,735.

     OIG recommendation that NDOH work with CDC to resolve whether the $72,292 of VAT
     was an allowable expenditure under the c ooperative agreement

     NDoH concurs with this recommendation. Based on discussions with CDC, VAT is not an
     allowable cost. This CoAg was registered for VAT exemption on 20/06/2012. The NDoH
     submitted claims to the South African Revenue Services (SARS) for all VAT charges for the
     budget period reviewed by the OIG. Once these funds are received , the NDOH will work with
     the Procurement and Grants Office (PGO) and the Project Officer to use those funds as per the
     terms of the Cooperative Agreement. The VAT registration certificate is attached , Appendix 3.

     OIG recommendation that NDOH file an amended FSR for the budget period of the
     cooperative agreement reviewed (September 30, 2009 through September 29, 2010).

     NDoH requires further clarification as to why the OIG indicates the incorrect exchange rate was
     used. Please provide supporting documentation so that the NDoH can investigate this further
     and revise the FSR according ly.



                                                                            1
                                                                                              Page 2 of 4




OIG recommendation that NDOH develop and implement policies and procedures fo r
reconciling the FSR to the accounting records prior to submission, t hat account ing
records differentiate b etween CDC cooperative agreements and y ears w ithi n t hose
agreements, and ensuring that differentiate between CDC cooperativ e agreements and
years within those agreements is mai ntained.

NDoH concurs with this recommendation. The accounting records are based on the Basic
Accounting System (BAS) which is the government of South Africa's financial reporting and
accounting system, designed and implemented by the National Treasury Department for all
government departments. Although it would not be possible to differentiate between years and
cooperative agreements within BAS, the NDOH now maintains separate spreadsheets that will
enable differentiation between years and cooperative agreements.

Since the review period, the following new developments have been implemented:

   • 	 Cooperative Agreement Project Management Unit (PMU ) monthly reconciliations: Budget­
       to actual comparisons are currently being performed timely and source and supporting
       documents are reconciled with actual expenditure as per the Ledger and Sub Ledger.
   • 	 Fund Accountability Deviations: Source-and supporting documentation are reconciled
       monthly with the actual expenditure and the Fund Accountability Statement is being
       updated quarterly.

OIG reco mmendation th at NDOH use the exchange rate in effect at the time it prepares
the FSR.

NDoH requires further clarification as to why the OIG indicates the incorrect exchange rate was
used . Please provide supporting documentation so that the NDoH can investigate this further
and revise the FSR accordingly.

OIG recommendation t hat NDOH develo p and implement policies and procedures for
submitting the annual progress report in a timely manner.

NDoH concurs with the recommendation made by OIG. During the review period , the annual
progress report was not submitted in a timely manner. However, since then, the annual report,
interim progress reports, and quarterly PEPFAR reports have all been subm itted on time.
Procedures have been developed and implemented to provide supporting documentation for audit
purposes; these procedures have been listed in the Standard Operating Procedure Manual (SOP)
that has been developed in conjunction with CDC South Africa.

OIG recommendation that NDOH have annual aud its performed and submitted in a timely
manner to the appli cable United States agency.

NDoH concurs with the recommendation made by OIG. During the review period , NDOH did not
have annual audits performed and subm itted in a timely manner as per the Notice of Award.
However, currently audits are being performed annually, at 12 month intervals, according to the US
Government Auditing Standards (GAO}, 45 CFR ; 74.26(d); Circular No. A-133.




                                                2
                                                                                               Page 3 of 4




The NDoH kindly requests that any further correspondence related to the Cooperative
Agreement be sent directly to me as the Principal Investigator, rather than the Minister of Health
so that I can ensure timely correspondence.

Thank you for the opportunity to respond to the OIG recommendations. Please do not hesitate
to contact us should you requires any further information .



Regards,




~~"'
Acting Principal Investigator
                                     (} '! \), llc..1
CDC-NDOH Cooperative Agreement
           I
Date: O?J O+jiJ




                                                3
                                                                                                 Page 4 of 4




                                                APPENDIX 1 

                                              NDOH RESPONSE 

                                               A-05-12-00022 


Sample#     Transactio       Description         Transaction      Transactio           Comments
              n Date                               Amount         n Amount
                                                    CZAR)            (USD)
   10       2/1/2010      T&S DOM Without         R8,638.20        $1 ,147.93   OIG Comment remains
                         OP : KM All (OWN TR)
   19       7/15/2010            S&W:             R11 ,799.00     $1,560.38
                         Compensation/Circum
                              Other (RES)
   23        8/16/201            S&W:             R7,452 .00       $1,025.74
                         Compensation/Circum
                              Other (RES)
Sub-Total                                         R27,889.20       $3,734.05
   30        9/1/2010     Train & Dev: Non-      R3,623,243 .52   $496.981.49         All supporting
                             Employees                                            documentation-attached
                                                                                      IAooendix 2)
Original                                          R3,651,133       $500,716
 Total
Amount
Revised                                             R27 ,889         3,734       To be refunded by NDoH
 Total
Amount




                                                      1
